    USE OF EXIT CRITERIA FOR MAJOR DEFENSE SYSTEMS


Report No. D-2001-032               January 10, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  The obtain additional copies of this audit report, visit the Inspector General, DoD, Home
  Page at: www.dodig.osd.mil/audit/reports or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937 (DSN
  664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Audit Followup and Technical
  Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932. Ideas
  and requests can also be mailed to:

                       OAIG-AUD (ATTN: AFTS Audit Suggestions)
                        Inspector General, Department of Defense
                           400 Army Navy Drive (Room 801)
                               Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098;
  by sending an electronic message to Hotline@dodig.osd.mil; or by writing to the Defense
  Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and
  caller is fully protected.




Acronyms
CARS                 Consolidated Acquisition Reporting System
DAES                 Defense Acquisition Executive Summary
MIDS-LVT             Multifunctional Information Distribution System-Low Volume Terminal
OSD                  Office of the Secretary of Defense
                       Office of the Inspector General, DoD
Report No. D-2001-032                                             January 10, 2001
  (Project No. D2000AE-0084)
  (Formerly Project No. 0AE-0121)

              Use of Exit Criteria for Major Defense Systems

                                    Executive Summary

Introduction. Milestone decision authorities use exit criteria to establish goals for
major Defense programs during an acquisition phase. Exit criteria are program-specific
accomplishments that program managers must satisfactorily demonstrate before a
program can progress further in the current acquisition phase or transition to the next
acquisition phase. By satisfying the exit criteria, the program manager demonstrates to
the milestone decision authority that a program is on schedule to achieving its final
program goals. To perform the audit, we selected nine major Defense programs for
review that the program offices estimated to total $78 billion in development and
procurement costs. The milestone decision authority for three of the major Defense
acquisition programs included in our sample was the Under Secretary of Defense for
Acquisition, Technology, and Logistics, while the milestone decision authorities for the
remaining six programs (three Army, one Navy, and two Air Force) were the
Component Acquisition Executives or their designees.

Objectives. The audit objective was to evaluate milestone decision authorities’ use of
exit criteria to track program progress in important technical, schedule, and
management risk areas. Specifically, we determined whether milestone decision
authorities use exit criteria to track acquisition program progress in meeting program
goals and to aid in deciding whether programs should continue within an acquisition
phase or progress to the next acquisition phase. In addition, we evaluated the
management control program as it relates to the audit objective.

Results. Our review of the nine major Defense programs (three Army, three Navy, and
three Air Force) showed that improvements were needed in the establishment of exit
criteria at milestone decision points and in reporting the status toward attaining exit
criteria requirements to milestone decision authorities.

    •   For seven of the nine programs reviewed, milestone decision authorities did
        not ensure that program managers proposed program-specific exit criteria for
        use at the future milestone decision point(s). As a result, the milestone
        decision authorities were limited in their ability to use exit criteria as a
        management tool to determine whether programs under their review and
        oversight should progress within an acquisition phase or continue into the next
        acquisition phase at milestone decision points (finding A).




                                            i
    •    Program managers for three of the five major Defense acquisition programs
         reviewed did not report their status toward attaining exit criteria requirements
         in the quarterly Defense Acquisition Executive Summary. As a result,
         milestone decision authorities and Office of the Secretary of Defense action
         officers did not have information, through the Defense Acquisition Executive
         Summary, to use as a management tool for assessing each program’s progress
         toward satisfying exit criteria requirements and for providing direction, when
         needed, between milestone decision points (finding B).

Recommendations in this report, if implemented, will ensure that exit criteria are
established, that the status of approved exit criteria is routinely reported in the Defense
Acquisition Executive Summary, and will correct the material management control
weaknesses identified in Appendix A.

Summary of Recommendations. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics:

    •    Enforce the requirement that program managers propose and milestone
         decision authorities establish program-specific exit criteria for exiting
         acquisition decision points for major Defense acquisition programs;

    •    Establish exit criteria for exiting the engineering and manufacturing
         development phases for the Multifunctional Information Distribution System-
         Low Volume Terminal and the VIRGINIA class submarine programs; and

    •    Revise mandatory instructions for the Consolidated Acquisition Reporting
         System to require program managers to report on the status toward satisfying
         exit criteria requirements in the Defense Acquisition Executive Summary.

We also recommend that the Deputy for Systems Acquisition, U.S. Army Tank-
automotive and Armaments Command, establish exit criteria for the Wide Area
Munition.

Management Comments. We provided a draft of this report on October 11, 2000.
We did not receive comments from the Under Secretary of Defense for Acquisition,
Technology, and Logistics. We received comments from the Deputy for Systems
Acquisition, U.S. Army Tank-automotive and Armaments Command, who agreed with
our recommendation applicable to the Wide Area Munition, and the Commander, Space
and Naval Warfare Systems Command, who did not concur with the finding applicable
to the Multifunctional Information Distribution System-Low Volume Terminal but
agreed to implement the related recommendation. A discussion of the management
comments is in the Findings section of the report, and the complete text is in the
Management Comments section.

Audit Response. The Army and the Navy comments were responsive and additional
comments are not required. Because the Under Secretary of Defense for Acquisition,
Technology, and Logistics, did not respond to the draft report, we request that he
provide comments on this final report by February 12, 2001.


                                             ii
Table of Contents

Executive Summary                                                     i


Introduction
     Background                                                       1
     Objectives                                                       2

Findings
     A. Establishing Program-Specific Exit Criteria                   4
     B. Exit Criteria Status Reporting                               12

Appendixes
     A. Audit Process
          Scope                                                      15
          Methodology                                                16
          Management Control Program Review                          16
          Prior Coverage                                             17
     B. Terms and Definitions                                        18
     C. Information on Nine Programs Reviewed                        19
     D. Exit Criteria Established for Nine Programs Reviewed         22
     E. Report Distribution                                          28

Management Comments
     Deputy for Systems Acquisition, U.S. Army Tank-automotive and
       Armaments Command Comments                                    31
     Space and Naval Warfare Systems Command Comments                34
          For management purposes, DoD Regulation 5000.2-R requires program
          managers for major Defense acquisition programs to report the status toward
          satisfying exit criteria requirements in the quarterly Defense Acquisition
          Executive Summary (DAES). This reporting requirement enables milestone
          decision authorities to quickly react to potential problem areas between
          milestone decision points. Appendix B provides definitions of technical terms
          used in the report.

          Public Law. DoD Regulation 5000.2-R links the requirement for exit criteria
          to section 2220, title 10, United States Code (10 U.S.C. 2220), “Performance
          Based Management: Acquisition Programs.” In addition, 10 U.S.C. 2220
          requires that the Secretary of Defense define cost, performance, and schedule
          goals for major Defense acquisition programs for each phase of the acquisition
          process.

          Programs Selected for Audit. To perform the audit, we selected the following
          nine major Defense programs for review that the program offices estimated to
          total $78 billion in development and procurement costs:

               •   the Army’s Wide Area Munition, All Source Analysis System, and
                   Multiple Launch Rocket System Upgrade1,

               •   the Navy’s Multifunctional Information Distribution System-Low
                   Volume Terminal (MIDS-LVT)1, Extended Range Guided Munition, and
                   VIRGINIA Class Submarine1; and

               •   the Air Force’s Wind Corrected Munition Dispenser, National Airspace
                   System1, and Advanced Extremely High Frequency Program1.

          The Under Secretary of Defense for Acquisition, Technology, and Logistics was
          the milestone decision authority for three of the five major Defense acquisition
          programs selected for our review. The authority for making milestone decisions
          for the remaining two major Defense acquisition programs were the Component
          Acquisition Executives or their designees. For the other four programs (two
          Army, one Navy, and one Air Force), the milestone decision authority was the
          Component Acquisition Executive or their designee. Appendix C provides
          program information on the nine programs reviewed.

Objectives
          The audit objective was to evaluate milestone decision authorities’ use of exit
          criteria to track program progress in important technical, schedule, and
          management risk areas. Specifically, we determined whether milestone decision
          authorities were using appropriate exit criteria to track acquisition program

1
    Major Defense acquisition program.




                                              2
progress in meeting program goals and to aid in deciding whether programs
should progress within an acquisition phase or continue to the next acquisition
phase. In addition, we evaluated the management control program as it relates
to our audit objective. Appendix A discusses the scope and methodology as
well as the management control program.




                                    3
                   A. Establishing Program-Specific Exit
                      Criteria
                   For seven of the nine programs reviewed, milestone decision authorities
                   did not ensure that the program managers proposed program-specific exit
                   criteria for use at future milestone decision point(s). This condition
                   occurred because:

                   •   the milestone decision authorities for four programs did not enforce
                       the requirement that program managers propose exit criteria for use
                       at future milestone decision point(s), and

                   •   program managers for seven of the nine programs proposed one or
                       more exit criteria that repeated the minimum requirements for
                       acquisition milestone phases contained in the approved program
                       baseline and DoD Regulation 5000.2-R.

                   As a result, the milestone decision authorities were limited in their
                   ability to use exit criteria as a management tool to determine whether
                   programs under their review and oversight should progress within an
                   acquisition phase or continue into the next acquisition phase at milestone
                   decision points.

Exit Criteria Policy
           Defense Policy. The requirement for establishing exit criteria as a management
           tool for use in the acquisition process was initially included in the February 23,
           1991, version of DoD Instruction 5000.2, “Defense Acquisition Management
           Policies and Procedures.” The Instruction required that the milestone decision
           authority, at milestone decision points, establish program-specific results, or
           exit criteria, for the next phase(s) of the acquisition process for Defense
           acquisition programs. The Instruction defined exit criteria as critical results that
           must be attained during the next acquisition phase, and stated that failure to
           meet the exit criteria would halt the progress of a system towards the next
           milestone decision point. Furthermore, the Instruction required that exit criteria
           be program-specific accomplishments that did not repeat the minimum required
           accomplishments for each acquisition phase contained in the Instruction and in
           the acquisition program baseline.

           The Under Secretary of Defense for Acquisition and Technology,2 incorporated
           the exit criteria requirements of DoD Instruction 5000.2 in DoD Regulation
           5000.2-R, March 15, 1996. For major Defense acquisition programs, the
           Regulation requires that the milestone decision authority establish exit criteria
           for the program definition and risk reduction phase (phase I) and the engineering
           and manufacturing development phase (phase II) of the acquisition process.

2
    Renamed the Under Secretary of Defense for Acquisition, Technology, and Logistics in October 1999.



                                                    4
     The Regulation requires that the milestone decision authority document the exit
     criteria in the acquisition decision memorandum before the program enters each
     acquisition phase. Change 4 to DoD Regulation 5000.2-R, May 11, 1999,
     added the requirement that the milestone decision authority establish exit criteria
     for the low-rate initial production decision at the engineering and manufacturing
     development decision point. In addition, the Regulation states that the
     requirements in the Regulation are to serve as a model for managing other than
     major Defense acquisition programs.

     Military Departments’ Policy. The Military Departments extended the
     requirement for using exit criteria as defined in DoD Regulation 5000.2-R to all
     acquisition programs in:

        •   Army Regulation 70-1, “Research, Development, and Acquisition; Army
            Acquisition Policy,” January 15, 1998;

        •   Secretary of the Navy Instruction 5000.2B, “Implementation of
            Mandatory Procedures for Major and Non-Major Defense Acquisition
            Programs and Major and Non-Major Information Technology
            Acquisition Programs,” December 6, 1996; and

        •   Air Force Policy Directive 63-1, “Acquisition System,” August 31,
            1993.

Establishing Exit Criteria on the Nine Programs Reviewed
     All acquisition programs do not pass through each milestone decision point
     where DoD Regulation 5000.2-R requires the milestone decision authority to
     establish exit criteria. Some programs, such as the Army’s All Source Analysis
     System and Multiple Launch Rocket System Upgrade and the Navy’s Extended
     Range Guided Munition and MIDS-LVT, combined the program definition and
     risk reduction phase with the engineering and manufacturing development
     phase. For those programs, separate exit criteria were not necessary for the
     program definition and risk reduction phase. Similarly, the Army’s All Source
     Analysis System and the Air Force’s Advanced Extremely High Frequency
     Program did not include a low-rate initial production decision in their
     acquisition strategies. Consequently, exit criteria for low-rate initial production
     did not apply to those programs.

     Accordingly, for the nine programs reviewed, we identified 23 decision points
     for which milestone decision authorities needed to establish exit criteria. Four
     of the decision points covered the Wide Area Munition product improvement
     programs. Although the milestone decision authority established exit criteria for
     the product improvement programs, he did not define whether the exit criteria
     were for the low-rate initial production decision or for exiting the engineering
     and manufacturing development phase of the acquisition process. In addition, as
     shown in the following table, the milestone decision authorities did not establish
     exit criteria for 4 of the 23 decision points.



                                          5
               Availability of Exit Criteria for Future Program Reviews

                                               Program                                 Engineering and
                                            Definition and       Low-Rate Initial       Manufacturing
                                            Risk Reduction         Production           Development
                  Program                       Phase               Decision                Phase


     Army
     All Source Analysis System                                                                X
     Multiple Launch Rocket System
        -Guided Rocket                                                  X                      X
        -Launcher                                                                              X
     Wide Area Munition
        -Basic                                                         X                Not Established
        -Product Improvement-1                                   Undeterminable         Undeterminable
        -Product Improvement-2                                   Undeterminable         Undeterminable


     Navy
     Extended Range Guided Munition                                     X                     X
     MIDS-LVT                                                           X               Not Established
     VIRGINIA Class Submarine                      X                    X               Not Established


     Air Force
     Advanced Extremely High
                                                   X
        Frequency Program
     National Airspace Program                     X             Not Established               X
     Wind Corrected Munition                                           X                       X
        Dispenser


     X- The milestone decision authority establish exit criteria
     Undeterminable- Exit criteria not designated for a specific decision point.
     Not Establish- Milestone decision authority did not establish exit criteria for this decision point.



Need for Exit Criteria
     Milestone decision authorities for four of the nine programs reviewed did not
     require program managers to propose exit criteria for use at all applicable
     milestone decision points. This condition occurred because the milestone
     decision authorities for the four programs (Wide Area Munition, MIDS-LVT,
     VIRGINIA class submarine and the National Airspace Program) did not enforce




                                                  6
           the requirement that program managers propose exit criteria for use at future
           milestone decision points. In the following paragraphs, we discuss the three
           programs that require exit criteria for upcoming decisions.

           Wide Area Munition. The Wide Area Munition consists of a basic program
           and two product improvement programs. For the basic program, the Program
           Executive Officer for Armored Systems Modernization3 established exit criteria
           for low-rate initial production, but not for the engineering and manufacturing
           development phase. The milestone decision authority established the low-rate
           initial production exit criteria for the basic program at the same time that he
           made the low-rate initial production decision on June 18, 1996. However, the
           milestone decision authority did not require the program manager to propose
           exit criteria for the engineering and manufacturing development phase. When
           asked why not, the project officer stated that the exit criteria established for this
           decision were applicable for the low-rate initial production decision and the
           engineering and manufacturing development phase. However, the project
           officer was not able to provide documentation to support that assertion. For the
           two product improvements, the milestone decision authority did not identify
           whether the exit criteria established at the engineering and manufacturing
           development decision points were applicable to the low-rate initial production
           decision or for the engineering and manufacturing development phase of the
           acquisition process.

           More recently, the Wide Area Munition program office informed us that it is
           restructuring the program. The restructured program will be called the
           Advanced Hornet and will have modified exit criteria. The user is in the
           process of revising the operational requirements document for the restructured
           program.

           MIDS-LVT. For the MIDS-LVT program, the Under Secretary of Defense for
           Acquisition, Technology, and Logistics approved entry into the engineering and
           manufacturing development phase of the acquisition process on December 17,
           1993. However, he did not approve the exit criteria that the program manager
           proposed for exiting that phase. Instead, he shifted the focus of the program
           and instructed the program manager to submit updated exit criteria. In
           response, the program manager proposed updated criteria for the engineering
           and manufacturing development phase on October 5, 1994. On review of the
           proposed criteria, the milestone decision authority established the criteria for the
           low-rate initial production decision, but not the exit criteria for the engineering
           and manufacturing development phase. The program manager believed that the
           milestone decision authority would establish those exit criteria at the program
           review for the low-rate initial production decision in May 2000. However, the
           milestone decision authority did not require the program manager to propose
           exit criteria for the engineering and manufacturing development phase at the
           program review held on May 11, 2000.



3
    On June 23, 1997, the milestone decision authority was delegated to the Deputy for Systems
    Acquisition, U.S. Army Tank-automotive and Armaments Command.



                                                     7
     VIRGINIA Class Submarine. For the VIRGINIA class submarine, the Under
     Secretary of Defense for Acquisition, Technology, and Logistics approved entry
     into the engineering and manufacturing development phase of the acquisition
     process on June 30, 1995. At that time, the milestone decision authority
     established exit criteria for the low-rate initial production decision. However,
     the milestone decision authority did not require the program manager to propose
     exit criteria for the engineering and manufacturing development phase. When
     asked, the program manager stated that he did not believe that he could develop
     meaningful exit criteria for a decision that was 12 years in the future. He
     further stated that the program office planned to propose exit criteria for
     engineering and manufacturing development in FY 2002, as part of the
     overarching integrated product team review.

     Requirement for Exit Criteria. Milestone decision authorities should have
     required the program managers to propose different and more rigorous criteria
     for exiting the engineering and manufacturing development phase for the three
     acquisition programs. As required by DoD Regulation 5000.2-R, program
     managers must demonstrate more rigorous cost, schedule, and performance
     criteria between the low-rate initial production decision and the full-rate
     production milestone decision points. For example, the Regulation requires the
     program manager to demonstrate, through testing, that the system is potentially
     operationally effective and suitable before the low-rate initial production
     decision. Before the full-rate production decision, the Regulation requires the
     program manager to demonstrate that the system is operationally effective and
     suitable. Consequently, without criteria, the milestone decision authority and
     the program manager do not have the benefit of a focused approach that exit
     criteria bring to the decision-making process.

Establishing Program-Specific Requirements for Exit Criteria
     DoD Regulation 5000.2-R indicates that exit criteria should be a level of
     demonstrated performance (for example, a level of engine thrust), the
     accomplishment of a process at a certain level of efficiency (for example,
     manufacturing yield) or a successful accomplishment of an event (for example,
     first flight) that shows that the program is progressing satisfactorily toward
     program goals. These are examples of program-specific exit criteria. With the
     exception of the Advanced Extremely High Frequency Program and the
     Multiple Launch Rocket System, program managers for the nine programs
     reviewed proposed one or more exit criteria that were not program specific as
     required by the Regulation, and instead repeated the minimum required program
     accomplishments contained in the approved program baseline or DoD
     Regulation 5000.2-R. Appendix D lists the exit criteria established for the nine
     programs reviewed and identifies the exit criteria that were not program
     specific.

     The following paragraphs discuss examples of program-specific exit criteria and
     nonprogram-specific exit criteria that program managers proposed and milestone
     decision authorities approved.



                                        8
     Program-Specific Exit Criteria. Program managers did propose exit criteria
     that were program specific. For example, exit criteria established for the Wind
     Corrected Munition Dispenser included a requirement that the program manager
     demonstrate dispenser operation in medium-to-high altitudes before the program
     could enter low-rate initial production. Similarly, exit criteria for the
     VIRGINIA class submarine included a requirement that the program manager
     provide an estimate of the submarine’s inboard electronics configuration before
     the program definition and risk reduction phase could be exited. On the
     Extended Range Guided Munition program, exit criteria required that the
     program manager demonstrate a successful target engagement of an extended
     range guided munition that was land-based and gun-fired before the milestone
     decision authority granted approval to enter low-rate initial production.
     Satisfaction of these program-specific exit criteria will demonstrate to the
     milestone decision authorities whether the programs are progressing
     satisfactorily toward program goals.

     Exit Criteria That are Not Program Specific. One or more exit criteria for
     seven of the nine programs reviewed were not program specific. On the Wide
     Area Munition program, for example, exit criteria required the program
     manager to demonstrate the achievement of performance requirements specified
     in the required operational capability document. Similarly, on the Wind
     Corrected Munition Dispenser program, exit criteria required the program
     manager to submit documentation to support the decision to exit the engineering
     and manufacturing development phase. Such nonspecific exit criteria do not
     provide milestone decision authorities with additional information to make
     programmatic decisions.

     Examples Identified in Earlier Audit Reports. In 1996, 1997, and 2000, we
     reported on other acquisition programs that did not use established exit criteria
     for making milestone decisions. In Inspector General, DoD, Report
     No. 97-018, “The Patriot Advanced Capabilities-3 Program,” November 6,
     1996, we reported that the exit criteria for full-rate production did not require
     that missile reliability, a critical performance parameter, be stabilized before
     production. The Office of the Secretary of Defense (OSD) revised the exit
     criteria to include achievement of proper missile reliability before entering full-
     rate production. In Inspector General, DoD, Report No. 97-199, “The
     Minuteman III Guidance Replacement Program,” July 29, 1997, we reported
     that the exit criteria established for the low-rate initial production were too
     general in nature. On March 6, 1997, the Program Executive Office for Space
     Programs approved revised exit criteria, which listed more specific
     accomplishments as prerequisites before the program manager could award the
     low-rate initial production contract. There was no indication that the OSD took
     measures to ensure that other programs did not have the same deficiency.

Effective Use of Exit Criteria
     Milestone decision authorities for the Wind Corrected Munition Dispenser, the
     National Airspace System, and the Multiple Launch Rocket System Upgrade
     used the established exit criteria as an integral part in managing their programs.


                                          9
    Wind Corrected Munition Dispenser. As evidenced in the acquisition decision
    memorandum, the Principal Deputy Assistant Secretary of the Air Force for
    Acquisition and Management used the exit criteria as an integral part of the
    decision-making process. In the August 3, 1998, memorandum, the milestone
    decision authority identified the established low-rate initial production exit
    criteria and explained how the program manager had demonstrated achievement
    of the exit criteria. Clearly, this milestone decision authority used the exit
    criteria as a management tool in the decision-making process.

    National Airspace System. For the National Airspace System program, the
    Principal Deputy Assistant Secretary of the Air Force for Acquisition and
    Management requested and received documentation from the program manager
    that demonstrated that exit criteria established for the program definition and
    risk reduction and engineering and manufacturing development phases were
    met.

    Multiple Launch Rocket System Upgrade. An integrated product team,
    representing the Army Program Executive Officer for Tactical Missiles, used
    the exit criteria for monitoring the program manager’s progress in satisfying
    requirements for entry into low-rate initial production. This review occurred
    1 year before the low-rate initial production decision point. As a result of the
    review, the program manager was able to provide the integrated product team
    with additional information demonstrating the satisfaction of the exit criteria
    before the low-rate initial production decision point.

Summary
    Milestone decision authorities were not enforcing the requirement that program
    managers propose program-specific exit criteria for use as a management tool in
    reviewing and overseeing acquisition programs. In the absence of program-
    specific exit criteria for major acquisition decision points, milestone decision
    authorities were limited in their ability to use exit criteria as a management tool
    to determine whether programs under their review and oversight should
    progress within an acquisition process or continue into the next acquisition
    phase at milestone decision points.

Management Comments on the Finding and Audit Response
    Management Comments on the MIDS-LVT Exit Criteria. The Commander,
    Space and Naval Warfare Systems Command, nonconcurred with the finding
    assertion for the MIDS-LVT program that four of the exit criteria established
    for entering the low-rate initial production phase of the acquisition process were
    not program specific. He stated that the four exit criteria (closing out all critical
    design review issues, completing qualification testing, conducting the production
    readiness review, and conducting a physical configuration audit) were program
    specific and provided the milestone decision authority with information to make
    the appropriate programmatic decision. The complete text is in the Management
    Comments section of this report.


                                         10
    Audit Response. We agree that the four exit criteria in question will provide
    the milestone decision authority with information to make the appropriate
    programmatic decision. As stated in the finding, DoD Regulation 5000.2
    requires that the exit criteria be program specific and not repeat the minimum
    required accomplishments contained in the approved program baseline or DoD
    Regulation 5000.2. As a result of the comments received, we reviewed our
    assessment and determined that DoD Regulation 5000.2-R does not require a
    production readiness review; therefore, we adjusted Appendix D accordingly.
    However, the remaining three exit criteria in question were not program specific
    because they repeated required accomplishments contained in DoD Regulation
    5000.2.

Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

           a. Enforce the requirement that program managers propose and
    milestone decision authorities establish program-specific criteria for exiting
    acquisition decision points for major Defense acquisition programs;

           b. Establish exit criteria for exiting the engineering and
    manufacturing development phases for the Multifunctional Information
    Distribution System-Low Volume Terminal and the VIRGINIA class
    submarine programs.

    Management Comments. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics did not comment on the recommendation. We
    request that he provide comments in response to the final report.

    Although not required to comment, the Commander, Space and Naval Warfare
    Systems Command, stated that exit criteria for the MIDS-LVT full-rate
    production decision were being developed and would be submitted to the
    milestone decision authority for approval.

    A.2. We recommend that the Deputy for Systems Acquisition, U.S. Army
    Tank-automotive and Armaments Command, establish exit criteria for the
    low-rate initial production decision and the engineering and manufacturing
    development phase for the product improvement programs-1 and -2 of the
    Wide Area Munition.

    Management Comments. The Deputy for Systems Acquisition, U.S. Army
    Tank-automotive and Armaments Command, concurred and estimated that
    revision of the exit criteria will be completed by January 19, 2001.




                                       11
            B. Exit Criteria Status Reporting
            Program managers for three of the five major Defense acquisition
            programs reviewed did not report their status toward attaining exit
            criteria requirements in the quarterly Defense Acquisition Executive
            Summary. Program managers did not report exit criteria status because
            two program managers did not understand the exit criteria reporting
            requirements established in DoD Regulation 5000.2-R, and one program
            manager did not have exit criteria established to report against.
            Moreover, the Defense Acquisition Executive did not have procedures in
            place to enforce the reporting requirement. As a result, milestone
            decision authorities and OSD action officers did not have information to
            use as a management tool for assessing each program’s progress toward
            satisfying exit criteria requirements and for providing direction, when
            needed, between milestone decision points.

Exit Criteria Status Reporting Policy
     DoD Regulation 5000.2-R requires program managers for major Defense
     acquisition programs to report the status toward attaining exit criteria
     requirements in the quarterly Defense Acquisition Executive Summary (DAES).
     Program managers are to prepare the quarterly DAES using the Consolidated
     Acquisition Reporting System (CARS). The CARS is a personal-computer-
     based, entry and reporting software package that maintains and reports
     information on major Defense acquisition programs. The CARS has mandatory
     instructions on how to prepare and review the quarterly DAES and defines
     where in the DAES the program manager must report the program’s status
     toward achieving exit criteria requirements.

Reporting Program Status
     Program managers for three of the five major Defense acquisition programs
     reviewed did not report their status toward achieving exit criteria requirements
     in the quarterly DAES. Program managers for the Advanced Extremely High
     Frequency Program and the Multiple Launch Rocket System did not understand
     the exit criteria reporting requirements in DoD Regulation 5000.2-R and the
     program manager for the VIRGINIA class submarine did not have exit criteria
     established to report against. This occurred because the Defense Acquisition
     Executive did not have procedures in place through the mandatory CARS
     instructions to enforce the reporting requirement. Although the CARS
     instructions defines the process that OSD action officers use to assess and
     review the DAES submission, it does not assign the OSD action officers with
     responsibility for ensuring that program managers include exit criteria status
     information in the DAES. Program managers, when asked, gave different
     reasons for not reporting exit criteria status information in the DAES.

     Advanced Extremely High Frequency Program. The program manager for
     the Advanced Extremely High Frequency Program stated that she was not aware


                                        12
    of the requirement to report on the status toward achieving exit criteria
    requirements in the DAES. Moreover, the program manager stated that OSD
    action officers did not note the omission during their review of the quarterly
    DAES submission. As a result of our review, the program manager began
    reporting on the status toward achieving exit criteria requirements in the June
    2000 DAES. Current information concerning the ability of a program manager
    to achieve established exit criteria is essential in that it provides the milestone
    decision authority with the opportunity to intercede if progress is not deemed
    satisfactory.

    Multiple Launch Rocket System Upgrade. The program manager stated that
    he reported on the status toward achieving the program’s exit criteria in the
    DAES on an exception basis. Specifically, the program manager explained that
    his DAES submissions on exit criteria status were omitted unless he was
    experiencing problems in achieving exit criteria requirements. He also indicated
    that OSD action officers had not brought the exit criteria reporting omission to
    his attention for corrective action.

    VIRGINIA Class Submarine. The program manager for the VIRGINIA class
    submarine also did not report on the status toward attaining the program’s exit
    criteria in the DAES because he did not propose, and the milestone decision
    authority did not establish, exit criteria for the engineering and manufacturing
    development phase of the acquisition process.

    Condition Previously Reported. In Inspector General, DoD, Report
    No. 99-075, “Acquisition of the SH-60R Light Airborne Multipurpose System
    Mark III Block II Upgrade,” February 2, 1999, we also reported that OSD
    action officers did not question the absence of exit criteria status information in
    the DAES. Based on the report, the program manager agreed to begin reporting
    on the program’s exit criteria status in the DAES. There was no indication that
    the OSD took any measures to ensure that other programs did not have the same
    deficiency.

CARS Procedures
    The CARS instruction identified nine indicator categories for OSD action
    officers’ examination. However, the nine indicators did not include a
    requirement for OSD action officers to review exit criteria reporting
    information. An OSD action officer confirmed that their primary review focus
    was on the nine indicator categories. Without this focus in the CARS
    instruction, OSD action officers were not verifying whether program managers
    were reporting on their exit criteria status as required. To remedy this
    condition, the CARS instruction could be revised to include exit criteria
    requirements as an indicator category for OSD action officer examination or to
    insert CARS validation checks on DAES submissions for the program managers
    to include exit criteria status information in the DAES.




                                         13
Summary
    One of the primary purposes of establishing and monitoring exit criteria is to
    provide milestone decision authorities with information for assessing a
    program’s progress toward satisfying final program goals; a periodic status
    reporting mechanism is essential. Without such a reporting mechanism,
    milestone decision authorities and OSD action officers did not have information
    to use as a management tool for assessing each program’s progress toward
    satisfying exit criteria requirements and for providing direction, when needed,
    between milestone decision points.

Recommendation and Management Comments
    B. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics revise the Consolidated Acquisition Reporting
    System instructions to include a requirement to use exit criteria as an
    indicator category for Office of the Secretary of Defense action officer
    examination or to insert a Consolidated Acquisition Reporting System
    validation check on Defense Acquisition Executive Summary submissions for
    program managers to include exit criteria status information in the Defense
    Acquisition Executive Summary.

    Management Comments. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics did not comment on the recommendation. We
    request that he provide comments in response to the final report.




                                       14
Appendix A. Audit Process

Scope
    We conducted this audit from January through September 2000, and reviewed
    documentation dated from November 1986 through August 2000. We
    performed the audit using requirements pertaining to exit criteria in
    DoD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
    Acquisition Programs (MDAPs) and Major Automated Information Systems
    (MAIS) Acquisition Programs,” Change 4, May 11, 1999.

    In accomplishing the objective, we selected nine major Defense programs to
    review: three each from the Army, Navy and Air Force. We subjectively
    selected the programs to provide a variety of weapon types and a cross-section
    of DoD acquisition organizations, while considering the amount of prior audit
    coverage. We did not include Major Automated Information Systems in our
    review because exit criteria for those programs will be covered in separate
    upcoming audits. The nine major Defense programs selected were:

         •   the Army’s Wide Area Munition, All Source Analysis System, and
             Multiple Launch Rocket System Upgrade;

         •   the Navy’s MIDS-LVT, Extended Range Guided Munition, and
             VIRGINIA Class Submarine; and

         •   the Air Force’s Wind Corrected Munition Dispenser, National
             Airspace System, and Advanced Extremely High Frequency Program.

    DoD-Wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act , the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate level goal and subordinate
    performance goal.

         •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
             future by pursuing a focused modernization effort that maintains U.S.
             qualitative superiority in key warfighting capabilities. Transform the
             force by exploiting the Revolution in Military Affairs, and reengineer
             the Department to achieve a 21st century infrastructure.(01-DoD-2)

         •   FY 2001 Subordinate Performance Goal 2.4: Meet combat forces’
             needs smarter and faster, with products and services that work better
             and cost less, by improving the efficiency of DoD’s acquisition
             processes.(01-DoD-2.4)




                                       15
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Weapons Systems Acquisition high-risk area.

Methodology
    We conducted this program audit in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD, and included such tests of management controls as we
    deemed necessary. We did not use computer-processed data to perform this
    audit.

    To accomplish the audit objective, we took the following steps:

         •   determined whether exit criteria were in place for milestone decision
             points and other programmatic events, such as low-rate initial
             production decisions;

         •   determined whether the program managers periodically reported the
             status on attaining the exit criteria requirements to milestone decision
             authorities for their review and use; and

         •   determined whether the milestone decision authorities were using the
             exit criteria as a program management tool.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD Directive 5000.1, “Defense Acquisition,” March 15, 1996, and DoD
    Regulation 5000.2-R, acquisition managers are to use program cost, schedule,
    and performance parameters as control objectives to implement the requirements
    of DoD Directive 5010.38. Accordingly, we limited our review to management
    controls directly related to the use of exit criteria for major defense systems.

    Adequacy of Management Controls. We identified a material management
    control weakness as defined by DoD Instruction 5010.40, “Management Control
    (MC) Program Procedures,” August 28, 1996. Management controls were not
    adequate for ensuring that program managers for major Defense acquisition


                                        16
    program established exit criteria and reported the status of achieving approved
    exit criteria requirements in the quarterly Defense Acquisition Executive
    Summary. Recommendations A.1. and B., if implemented, will ensure that exit
    criteria are established and that the status of approved exit criteria is routinely
    reported in the Defense Acquisition Executive Summary.

    Adequacy of Management’s Self-Evaluation. The Office of the Under
    Secretary of Defense for Acquisition, Technology, and Logistics did not
    perform a self-evaluation to identify material management control weaknesses.

Prior Coverage
    During the last 5 years, the Inspector General, DoD, issued four reports that
    addressed exit criteria.

    Inspector General, DoD, Report No. D-2000-187, “The Low-Rate Initial
    Production Decision for the Joint Biological Point Detection System,”
    September 11, 2000

    Inspector General, DoD, Report No. 99-075, “Acquisition of the SH-60R Light
    Airborne Multipurpose System Mark III Block II Upgrade,” February 2, 1999

    Inspector General, DoD, Report No. 97-199, “The Minuteman III Guidance
    Replacement Program,” July 29, 1997

    Inspector General, DoD, Report No. 97-018, “The Patriot Advanced
    Capabilities-3 Program,” November 4, 1996




                                        17
Appendix B. Terms and Definitions
   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program’s level of review, decision authority, and
   procedures. The acquisition categories consist of I, major Defense acquisition
   programs; IA, major automated information systems; II, less than major
   systems; and III, all other acquisition programs. In addition, Acquisition
   Category I programs have two subcategories: Acquisition Category ID
   programs, where the milestone decision authority is the Under Secretary
   Defense for Acquisition, Technology, and Logistics, and Acquisition Category
   IC programs, where the milestone decision authority is the Component
   Acquisition Executive.

   Acquisition Phase. An acquisition phase represents all the tasks and activities
   needed to bring a program to the next major milestone. Phases provide a logical
   means of progressively translating broadly stated mission needs into well-
   defined, system-specific requirements and, ultimately, into operationally
   effective, suitable, and survivable systems.

   Component Acquisition Executive. A single official within a component who
   is responsible for all acquisition functions within that component.

   Defense Acquisition Executive Summary. The DAES is the principal Defense
   Acquisition Executive reporting mechanism for tracking program status between
   program milestone events.

   Engineering and Manufacturing Development. Engineering and
   manufacturing development is the third phase of the acquisition process where
   the program fully develops, engineers, designs, fabricates, tests, and evaluates
   the systems and the principal items necessary for its support.

   Exit Criteria. Exit criteria are program-specific accomplishments that must be
   satisfactorily demonstrated before a program can progress further in the current
   acquisition phase or continue to the next acquisition phase.

   Low-Rate Initial Production. Low-rate initial production is the production of
   a system in limited quantities to provide articles for additional operational test
   and evaluation, to establish an initial production base, and to permit an orderly
   increase in the production rate that will lead to full-rate production after
   successful completion of operational testing.

   Milestone. A milestone is the point where the milestone decision authority
   decides whether to start or continue an acquisition program in the acquisition
   process.

   Milestone Decision Authority. A milestone decision authority is the individual
   designated in accordance with criteria established by the Under Secretary of
   Defense for Acquisition, Technology, and Logistics to approve entry of an
   acquisition program into the next phase.


                                       18
Appendix C. Information on Nine Programs
            Reviewed
   Advanced Extremely High Frequency Program. The Advanced Extremely
   High Frequency Program is an Air Force Acquisition Category ID major
   Defense acquisition program. The Advanced Extremely High Frequency
   satellite system provides survivable, jam-resistant, worldwide, secure
   communications for the strategic and tactical warfighter. The program manager
   estimates a total acquisition cost of $2.5 billion. The milestone decision
   authority for the program is the Under Secretary of Defense for Acquisition,
   Technology, and Logistics.

   All Source Analysis System. The All Source Analysis System is an Army
   Acquisition Category II major system. It is a mobile, tactically deployable,
   computer-assisted intelligence and electronic warfare processing system. The
   system is employed during peacetime and wartime operational environments and
   is capable of continuous 24-hours-a-day, 7 days-a-week operation under tactical
   conditions. The program office estimates a total acquisition cost of $1.2 billion.
   The milestone decision authority for the program is the Army Program
   Executive Officer for Command, Control, and Communication Systems.

   Extended Range Guided Munition. The Extended Range Guided Munition is
   a Navy Acquisition Category II major system. The Extended Range Guided
   Munition projectile is rocket-assisted, with a range of 63 nautical miles. The
   Extended Range Guided Munition is designed to provide supporting fire for
   amphibious assaults, raids, demonstrations or withdrawals; to suppress or
   destroy hostile anti-ship weapons and air defense systems; and to delay and
   disrupt enemy movement and reinforcement of defending forces. The program
   office estimates a total acquisition cost of $600 million. The milestone decision
   authority for the program is the Navy Program Executive Officer for Surface
   Strike.

   MIDS-LVT. The MIDS-LVT is a Navy Acquisition Category ID major
   Defense acquisition program and is a joint, multi-service cooperation
   development program. It is a communications, navigation, and identification
   system intended to support key theater functions such as surveillance,
   identification, air control, weapons engagement coordination, and direction for
   all Services and allied forces. The MIDS-LVT will provide jamming-resistant,
   wide-area communications between the MIDS-LVT and the Joint Tactical
   Information Distribution System-equipped platforms. It is intended to improve
   joint interoperability, enhance battlefield situation awareness, ensure
   information superiority, and support precision engagement of threats for our
   forces. Under the direction of the Navy Program Executive Officer for Tactical
   Air Programs, the MIDS-LVT Program Office estimates a total program cost of
   $1.2 billion in FY 1992 base dollars. The milestone decision authority for the
   program is the Under Secretary of Defense for Acquisition, Technology, and
   Logistics.



                                       19
Multiple Launch Rocket System Upgrade. The Multiple Launch Rocket
System Upgrade program is an Army Acquisition Category IC major Defense
acquisition program. It satisfies the need for a non-nuclear, all-weather,
indirect, area fire weapon system to strike counterfire, air defense, armored
formations, and other high-payoff targets at all depths of the tactical battlefield.
The Multiple Launch Rocket System Upgrade consists of two components, the
guided rocket and the multiple launch rocket system launcher. Primary missions
of the Multiple Launch Rocket System Upgrade include suppression,
neutralization, and destruction of threat fire support and forward area air
defense targets. The Multiple Launch Rocket System Upgrade program office
estimates a total program cost of $4.9 billion. The milestone decision authority
for the program is the Army Program Executive Officer for Tactical Missiles.

National Airspace System. The National Airspace System is an Air Force
Acquisition Category IC major Defense acquisition program. It will modernize
the DoD radar approach control facilities in parallel with the Federal Aviation
Administration. The program provides systems and facilities that are
compatible and interoperable with the Federal Aviation Administration
modernization efforts, prevents DoD flight delays and cancellations, continues
DoD access into special use airspace, provides transparent services to military
and civil aircraft, replaces aging DoD air traffic control systems, and increases
flight safety. The National Airspace System also includes the Military Airspace
Management System that will schedule and manage special use airspace. The
program office estimates a total program cost of $1 billion. The milestone
decision authority for the program is the Principal Deputy Assistant Secretary of
the Air Force for Acquisition and Management.

VIRGINIA Class Submarine. The VIRGINIA Class Submarine is a Navy
Acquisition Category ID major Defense acquisition program. The VIRGINIA
Class submarine is designed to: replace the LOS ANGELES Class submarines;
rapidly deploy to militarily important hostile ocean areas and deny their use to
the enemy; clear the way for strikes by other friendly forces; and engage and
destroy enemy submarines, surface forces and land targets, as well as provide
full-dimensional protection for afloat forces. The VIRGINIA class submarine
program office estimates a total program cost of $65 billion. The milestone
decision authority for the program is the Under Secretary of Defense for
Acquisition, Technology, and Logistics.

Wide Area Munition. The Wide Area Munition is an Army Acquisition
Category II major system. It is a smart, autonomous, top-attack anti-tank
munition designed to defeat armored combat vehicles from a standoff distance.
It uses acoustic and seismic sensors in its ground platform to detect, track, and
classify potential targets, and then launch an infrared deterring submunition over
the top of the selected target. Once the submunition detects the target, it fires
an explosively formed penetrator to defeat the target. The Wide Area Munition
program office estimates a total program cost of $583 million. The milestone
decision authority for the program is the Deputy for Systems Acquisition,
U.S. Army Tank-automotive and Armaments Command.




                                    20
There are three distinct Wide Area Munition versions. The Wide Area
Munition-basic, the Wide Area Munition product improvement program-1, and
the Wide Area Munition product improvement program-2.

       Wide Area Munition–Basic. The Wide Area Munition-basic is the
       Army’s first generation of a smart autonomous, top attack munition. It
       includes seismic and acoustic sensors. It can be hand emplaced and
       either manually or remotely set.

       Wide Area Munition Product Improvement Program-1. This version
       improves upon the Wide Area Munition-basic, increasing radio and two-
       way communication with improved range.

       Wide Area Munition Product Improvement Program-2. This version
       further improves the weapon system with active and passive sublet
       sensors, a combined effects warhead, and ground data sharing.

Wind Corrected Munitions Dispenser. The Wind Corrected Munitions
Dispenser is an Air Force Acquisition Category II major system. The Air Force
initiated the program in response to operational limitations identified during
Operation Desert Storm. Adverse weather, smoke, dust, and enemy defenses
affected delivery of direct attack munitions. Cluster munition accuracy was
significantly reduced when released at mid-to-high altitude. The Wind
Corrected Munitions Dispenser consists of a smart guidance tail kit, which
replaces the current tail section of the Combined Effects Munition, Gator, and
Sensor Fused Weapon weapon systems. The Wind Corrected Munitions
Dispenser program office estimates a total program cost of $674 million. The
milestone decision authority for the program is the Principal Deputy Assistant
Secretary of the Air Force for Acquisition and Management.




                                  21
Appendix D. Exit Criteria Established For Nine
            Programs Reviewed
           Listed are the exit criteria that milestone decision authorities established in one
           or more acquisition decision memorandums for the nine programs reviewed.
           For the nine programs, we identify the exit criteria that the program manager
           was required to satisfy before exiting each applicable acquisition phase.

           Advanced Extremely High Frequency Program. On May 4, 1999, the
           milestone decision authority established these exit criteria for exiting the
           program definition and risk reduction phase of the acquisition process:

                 •    Provide an updated, quantitative risk assessment demonstrating
                      program maturity.

                 •    Successfully complete a system design review with the offeror
                      demonstrating the potential to meet performance, schedule, and cost
                      requirements.

                 •    Conclude a successful engineering model process risk-reduction
                      program.

           All Source Analysis System. On July 28, 1993, the milestone decision
           authority established these exit criteria for exiting the engineering and
           manufacturing development phase:

                 •    During an initial operational test, the program must demonstrate the
                      capability to auto generate 12, and auto sanitize 2, message types.

                 •    During an initial operational test, the program must demonstrate the
                      ability to provide continuous intelligence support by resynchronizing
                      databases 90 percent of the time after tactical displacement.

                 •    The program must have three certifications:

                        - Joint Interoperability∗
                        - Automatic Digital Network Category III

                        - Sensitive Compartmented Information

                 •    During an initial operational test, the program must demonstrate that
                      workstation, on-equipment diagnostic capabilities permit an operator to
                      correctly fault detect and isolate replaceable units to a single line
                      90 percent of the time.

∗
    Exit criteria are not program specific as stated in DoD Regulation 5000.2-R.



                                                     22
           Extended Range Guided Munitions. On August 5, 1996, the milestone
           decision authority established exit criteria for the low-rate initial production
           decision and exiting the engineering and manufacturing development phase of
           the program.

                  Low-rate initial production decision. A successful target engagement of
           a land-based, gun-fired, extended range guided munition, in an operational
           requirements document threshold-jamming environment.

                  Engineering and manufacturing development phase. The successful
           completion of operational evaluation and a recommendation for fleet
           introduction.∗

           Multifunctional Information Distribution System–Low Volume Terminal.
           On October 5, 1994, the milestone decision authority established these exit
           criteria for the low-rate initial production decision:

                 •    Close out all critical design review issues.*

                 •    Complete qualification testing.*

                 •    Update independent cost estimates.

                 •    Revise the acquisition strategy report.

                 •    Conduct the production readiness review.

                 •    Verify the Multifunctional Information Distribution System terminal.

                 •    Conduct a physical configuration audit.*

                 •    Demonstrate compatibility and interoperability with the Joint Tactical
                      Information Distribution System class-2 terminals.

                 •    Include an early operational assessment of platform interface and
                      operator workload.

Multiple Launch Rocket System Upgrade. The Multiple Launch Rocket System
Upgrade consists of two components, the guided rocket and the multiple launch rocket
system launcher (launcher). On June 11, 1998, the milestone decision authority
established exit criteria for the guided rocket low-rate initial production decision and
the engineering and manufacturing development phase. On May 28, 1998, the
milestone decision authority established exit criteria for the launcher engineering and
manufacturing development phase.




∗
    Exit criteria are not program specific as stated in DoD Regulation 5000.2-R.



                                                     23
For the guided rocket low-rate initial production decision:

         •   Obtain type classification with a successful functional configuration audit.

         •   Obtain an 88.11 percent reliability rate.

         •   Complete a successful production readiness review.

For the guided rocket engineering and manufacturing development phase:

         •   The guided rocket must have a maximum range of 60 kilometers and a
             minimum range of 15 kilometers.

         •   The guided rocket must have an effectiveness rate of 30 percent expected
             fractional damage.

         •   Guided rocket reliability must be 86.7 percent.

         •   There must be a less than 1 percent hazardous dud rate.

For the launcher engineering and manufacturing development phase:

         •   To fire each type of the Multiple Launch Rocket System family of missiles
             that are in production.

National Airspace System. The milestone decision authority established exit criteria
for exiting the program definition and risk reduction phase and the engineering and
manufacturing development phase on November 5, 1992, and July 24, 1995,
respectively.

For the program definition and risk reduction phase:

         •   Demonstrate repackaging the Federal Aviation Administration Common
             Console into the DoD configuration.

         •   Demonstrate Military Airspace Management System prototype.

         •   Sign executive interagency agreements for test, procurement, and support of
             Federal Aviation Administration Advanced Automation System.∗
For the engineering and manufacturing development phase:

         •   Award the nondevelopmental items contracts for the Voice Communications
             Switching System, Digital Airport Surveillance Radar, and Digital Advanced
             Automation System programs.*

         •   Successfully complete the DoD National Airspace System Initial Operational
             Test and Evaluation. *

∗
    Exit criteria are not program specific as stated in DoD Regulation 5000.2-R.



                                                     24
                 •    Incorporate the Major Range and Test Facility Base and Maintenance
                      Replacement Unit quantities into the National Airspace System, if
                      quantities and funding are provided in time for the option exercise.

           VIRGINIA Class Submarine. The milestone decision authority established exit
           criteria for exiting the program definition and risk reduction phase and the low-
           rate initial production decision on August 18, 1994, and June 30, 1995,
           respectively.

           For the program definition and risk reduction phase:

                 •    Ensure that the Navy operational test agency completes an early
                      operational assessment on the potential of the preliminary design to
                      satisfy the requirements of the operational requirements document.∗

                 •    Document the preliminary design in an approved ship specification.*

                 •    Weight estimate the ship design.

                 •    Estimate the inboard electronics configuration.

                 •    Ensure that the OSD staff review the lead ship design and construction
                      “Request for Proposal” prior to issuance.*

                 •    Submit a waiver from full-up system level live-fire test and evaluation
                      for approval.*

           For the low-rate initial production decision:

                 •    The independent test organization for the Navy must update the
                      operational assessment.*
                 •    The Navy must provide a report that assesses the vulnerability of the
                      ship in accordance with the live-fire test and evaluation plan.*
                 •    The Director, Strategic and Tactical Systems, must establish an
                      integrated product team to review the ship and the design maturity of
                      the command, control, communication, and intelligence system to
                      determine their adequacy to proceed with the lead ship construction,
                      and report the results of the review.

           Wide Area Munition. The Wide Area Munition consists of a basic version and
           two product improvement program versions. On June 18, 1996, the milestone
           decision authority established exit criteria for the low-rate initial production
           decision for the Wide Area Munition-basic, and exit criteria for product
           improvement program-1 that the milestone decision authority did not stipulate to
           a specific decision point or acquisition phase.


∗
    Exit criteria are not program specific as stated in DoD Regulation 5000.2-R.



                                                     25
           For the basic version low-rate initial production decision:

                  •   Unit cost shall not exceed contract target cost by more than 5 percent.

                  •   Technical test hardware built on production tooling will demonstrate
                      lead times, production processes, production quality, and reliability
                      within 5 percent of predicted learning curves.

                  •   The system performance evaluation will demonstrate that, using
                      mission employment practices, performance specified in the
                      operational requirement document can be achieved.∗

           For the product improvement program-1:

                  •   The test program shall demonstrate that the communication, control,
                      and redeployability functions shall be achieved as specified when used
                      in accordance with mission employment practices.

                  •   The production readiness review supports transition to full-rate
                      production and validates production quality and processes.*

           Wind Corrected Munition Dispenser. On September 29, 1994, the milestone
           decision authority established exit criteria for the first low-rate initial production
           decisions. On August 3, 1998, established exit criteria for the second low-rate
           initial production decision and for exiting the engineering and manufacturing
           development phase. On July 20, 1999, the milestone decision authority
           established exit criteria for the third low-rate initial production decision.

           For the first low-rate initial production decision:

                  •   Demonstrate operation from medium-to-high altitude.

                  •   Average unit cost procurement price must be within objectives.

           For the second low-rate initial production decision:

                  •   Complete margin and qualification testing.
                  •   Complete end-to-end testing.
                  •   Complete at least one successful flight with pin-puller.
           For the third low-rate initial production decision:

                  •   Complete combined developmental and operational tests.
                  •   Complete Block 3A qualification testing.
                  •   Average unit procurement price must be within objectives.
∗
    Exit criteria are not program specific as illustrated in DoD Regulation 5000.2-R.



                                                      26
           For the engineering and manufacturing development phase:

                  •   Complete dedicated operational tests on B-52 and F-16 aircraft.

                  •   Meet the acquisition program baseline thresholds.∗

                  •   The contractor must meet full-rate production ramp requirements.

                  •   Achieve average unit procurement price within objectives.

                  •   Submit required documents.*




∗
    Exit criteria are not program specific as illustrated in DoD Regulation 5000.2-R.




                                                      27
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller/Chief Financial Officer)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Program Executive Officer for Command, Control, and Communications
   Project Manager, Intelligence Fusion
Program Executive Officer for Tactical Missiles
   Project Manager for Multiple Launch Rocket System Upgrade
Deputy for Systems Acquisition, U.S. Army Tank-automotive and Armaments Command
   Project Manager for Mines, Countermine, and Demolitions
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Program Executive Officer for Submarines
   Program Manager, VIRGINIA Class Submarine
Program Executive Officer for Tactical Air Programs
   Program Manager, Multifunctional Information Distribution System-Low Volume Terminal
Program Executive Officer for Surface Strike
   Program Manager, Extended Range Guided Munition
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Program Executive Officer for Airlift, Trainers, Modeling and Simulation
   Program Manager, National Airspace System
Program Executive Officer for Space
   Program Manager, Advanced Extremely High Frequency Program
Program Executive Officer for Weapons
   Program Director, Area Attack System Program Office
Auditor General, Department of the Air Force




                                            28
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology, Committee
  on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                           29
Deputy For Systems Acquisition, U.S. Army
Tank-automotive and Armaments Command
Comments




                      31
32
33
Space And Naval Warfare Systems Command
Comments




                    34
35
36
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

     Thomas F. Gimble
     Mary Lu Ugone
     John E. Meling
     Douglas P. Neville
     Barbara S. Wright
     James D. Madden
     Bradley M. Heller
     Sarah A. Gebhard
     Kevin B. Palmer
